   April 12, 2004




Acquisition
Small Business Administration
Section 8(a) Program Contracting
Procedures at the Defense Supply
Center, Columbus
(D-2004-070)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937)

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CCPI                  Capital City Pipes, Incorporated
DSCC                  Defense Supply Center, Columbus
FAR                   Federal Acquisition Regulation
SBA                   Small Business Administration
         Office of the Inspector General of the Department of Defense
Report No. D-2004-070                                                 April 12, 2004
   (Project No. D2003CF-0194)

    Small Business Administration Section 8(a) Program Contracting
          Procedures at the Defense Supply Center, Columbus

                                Executive Summary

Who Should Read This Report and Why? DoD contracting activities and DoD Small
Business offices should read this report to become fully aware of their roles in the
contract administration of the Small Business Administration Minority Small Business
and Capital Ownership Development Program and their joint relationships with the Small
Business Administration.

Background. The Small Business Administration section 8(a) Business Development
Program assists eligible small, disadvantaged businesses compete in the American
economy through business development. A small business contractor, J.G.B. Enterprises,
alleged to a Congressional Committee that the Small Business Administration and DoD
awarded contracts to an ineligible section 8(a) program contractor. The Chairman,
Committee on Small Business, U.S. House of Representatives, requested that the
Inspector General of the Department of Defense examine whether DoD and the Small
Business Administration violated the section 8(a) program of the Small Business Act by
awarding contracts to a business that was not financially responsible and that acted as a
broker for other manufacturers to perform the requirements.

Results. The primary intention and goal of the Small Business Administration Minority
Small Business and Capital Ownership Development Program were not furthered by the
administration of the seven contracts cited by the complainant, valued at $1,502,297.
Individually or as a joint effort, the Defense Supply Center, Columbus, Ohio, and the
Small Business Administration:

   •   did not document and support the technical (manufacturing, testing, and delivery)
       and financial capabilities of the contractor for performing the contract
       requirements cited in the complaint; and

   •   did not bar the contractor from fulfilling its contract requirement in a brokering
       capacity, a prohibited practice for contracting in the Minority Small Business and
       Capital Ownership Development Program.

As a result of the failure to verify the contractor’s capability to perform, the Small
Business Administration Minority Small Business and Capital Ownership Development
Program diminished its potential to enhance business development as intended while the
contractor added no value to the contracts yet earned over $135,000, or 9 percent of the
contract value.

To provide for a more meaningful and effective Minority Small Business and Capital
Ownership Development Program, the Under Secretary of Defense for Acquisition,
Technology, and Logistics should require that DoD contracting activities distribute the
Partnership Agreement between the Small Business Administration and the Department
of Defense, and emphasize compliance with the agreement. In addition, the Under
Secretary should require that contracting activities avoid awarding contracts to section
8(a) program contractors who operate as brokers. We added a recommendation to the
Under Secretary to define whether the responsibility for determining the technical
capability of an 8(a) firm is a DoD responsibility, a Small Business Administration
responsibility, or a joint responsibility of DoD and the Small Business Administration.
The Director, Defense Supply Center, Columbus should require that its contracting
activity and its Small Business Office conduct pre-award surveys of small and
disadvantaged businesses when an indication of technical or financial instability exists
and require compliance with the Partnership Agreement. (See the Finding section of the
report for the detailed recommendations.)

The Chairman, Committee on Small Business request raised two overall issues that
pertained to the contractor’s financial capability and it’s performance as a broker. After
looking at the complaint, we further defined the issues into five categories: technical
capabilities, financial capabilities, required equipment, quality system, and financial
statements. The results of our review and the review of the Defense Contract Audit
Agency, verified that the contractor did not have financial capability to perform the
contracts and the contractor acted as a broker. The review by the Office of the Inspector
General, Small Business Administration, determined that the contractor’s financial
capabilities on two of the three contracts it reviewed were debatable and that the
contractor subcontracted all the requirements on at least two contracts. See Appendix C
for a discussion of the specific issues raised by the complainant.

Management Comments and Audit Response. We issued a draft of this report on
December 12, 2003. The Under Secretary of Defense for Acquisition, Technology, and
Logistics did not respond to the draft report. Because of comments received from the
Defense Logistics Agency, we added a recommendation to the Under Secretary.
Generally, the Defense Logistics Agency contended that DoD does not have a role in
determining the technical capability of an 8(a) firm. We believe that the Partnership
Agreement between the Small Business Administration and DoD implies a shared
responsibility. We request that the Under Secretary of Defense for Acquisition,
Technology, and Logistics provide comments to the recommendations in this report by
June 11, 2004.
The Deputy Director, Logistics Operations, Defense Logistics Agency, agreed to request
preaward surveys of 8(a) firms when the ability of the firm to perform the contract is in
question and to revise guidance to alert contracting officers to take additional steps to
ensure that 8 (a) firms are responsible and capable of performing. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                    i

Background                                                           1

Objective                                                            2

Finding
     Section 8(a) Program Contracting Procedures                    3

Appendixes
     A. Scope and Methodology                                       11
         Prior Coverage                                             11
     B. Congressional Request                                       12
     C. Responses to Issues Raised in the Congressional Complaint   13
     D. Report Distribution                                         16

Management Comments
     Defense Logistics Agency Comments                              19
Background
    The Chairman, Committee on Small Business, U.S. House of Representatives,
    requested that the Inspector General Department of Defense
    (IG DoD) investigate issues raised in a complaint submitted to the Committee.
    The Committee also tasked the Inspector General for the Small Business
    Administration (SBA) with the same request. The complainant, J.G.B.
    Enterprises, contended that the DoD and the SBA violated section 8(a) of the
    Small Business Act by awarding contracts to a business (Capital Cities Pipes,
    Incorporated) that was not financially responsible and that acted as a broker for
    other manufacturers. J.G.B. Enterprises was the manufacturer and subcontractor
    for seven contracts awarded to the section 8(a) program contractor, Capital City
    Pipes, Incorporated (CCPI). Specifically, the Committee was concerned that the
    issues the complainant addressed represented lax oversight by certain officials
    within the section 8(a) program. The Committee requested a report that would
    address whether DoD actions were proper and whether we had any
    recommendation that might strengthen oversight of the section 8(a) program.

    Small Business Administration Minority Small Business and Capital
    Ownership Development Program. Title 13, Code of Federal Regulations, Part
    124, “8(a) Business Development/ Small Disadvantaged Business Status
    Determination,” Chapter 1, Subpart A – 8(a) Business Development, January 1,
    2002, addresses the SBA management of the section 8(a) Business Development
    Program. The intention and goal of the section 8(a) Business Development
    Program is to assist eligible small, disadvantaged businesses compete in the
    American economy through business development. The businesses are eligible
    for the program based on size, social and economic disadvantage, character, and
    potential to succeed. The SBA determines whether a business will receive
    admission into the program. The business must remain eligible and must submit
    required information annually to the SBA. A business can participate in the
    section 8(a) program for 9 years from the date of the SBA approval letter that
    certifies the business’s admission into the program. The SBA Division of
    Program Certification and Eligibility field office serving the territory in which the
    principal place of business is located accepts applications for admission into the
    section 8(a) program.

    Wholesalers Versus Brokers. Title 13 also contrasts eligibility requirements for
    section 8(a) program contractors whose business operations parallel those of a
    wholesaler versus a broker. Wholesalers can seek admission into the
    section 8(a) program and do not need to demonstrate that they are capable of
    meeting the requirements of the nonmanufacturer rule for its primary industry
    classification. The nonmanufacturer rule requires that a section 8(a) program
    contractor provide either its own product or that of another domestic small
    business manufacturing or processing concern. However, “brokers” are ineligible
    to participate in the section 8(a) program. Title 13 defines a broker as a “ . . .
    concern that adds no material value to an item or possession of or handle the item
    being procured with its own equipment or facilities.”

    Standard Industrial Classification Codes. The Standard Industrial
    Classification System (referred to as the North American Industry Classification
    System) is a Department of Commerce-managed standardized classification
    system established on an industry-by-industry basis covering the entire field of


                                          1
    U.S. economic activity. The SBA uses that system to determine whether an
    eligible small business is qualified to participate in the manufacture of a specific
    type of product line or to provide a specific service. The classification system
    includes products made or services rendered in the industry that best fit the
    principal nature of the small business contract.

    Memorandum of Understanding. In March 1998 a “Memorandum of
    Understanding between the U.S. Small Business Administration and the U.S.
    Department of Defense” was signed with the primary objective of expediting and
    streamlining the time intervals for offering to and determining eligibility of
    section 8(a) program contractors for DoD awards. The memorandum defined the
    agencies’ responsibilities for the administration of the section 8(a) program and
    provisions for the measure of its effectiveness. Specifically, the memorandum
    permitted that the SBA and DoD jointly address the capability of a section 8(a)
    program contractor. The SBA retained the right to perform on-site contract
    surveillance reviews and the responsibility for compliance with all provisions of
    title 13, including determining section 8(a) program contractor eligibility. DoD
    was responsible for determining which requirements were suitable to be offered to
    the section 8(a) program in accordance with the Federal Acquisition Regulations
    (FAR) Subpart 19.8. Where appropriate, DoD identified in conjunction with the
    appropriate SBA servicing offices section 8(a) program participants capable of
    performing the requirements. DoD continued to be responsible for complying
    with any applicable provisions of the FAR and the Defense Supplement. In 2002,
    the Memorandum of Understanding was superseded by a “Partnership Agreement
    between the U.S. Small Business Administration and the Department of Defense.”

    Federal Acquisition Regulation Requirements. FAR Part 19, Small Business
    Programs, addresses the overall policy, eligibility requirements, and coordinating
    roles of DoD and the SBA for the section 8(a) program. The policy mandates the
    maximum practicable opportunities in Government acquisitions to small,
    disadvantaged business concerns. FAR Part 19 does not specifically cite the
    Memorandum of Understanding or the Partnership Agreement nor does it
    reference or prohibit brokering or broker participation in the section 8(a) program.
    Part 19 does, however, permit the contracting officer to request a pre-award
    survey whenever considered useful. If the results of the pre-award survey raise
    substantial doubt as to the section 8(a) program contractor’s ability to perform,
    the contracting officer must refer the matter to the SBA for certificate of
    competency consideration.


Objective
    The audit objective was to examine procedures the DoD acquisition officials used
    to determine Small Business section 8(a) program contractor capabilities to
    manufacture and deliver items specified in the contracts. See Appendix A for a
    discussion of the audit scope and methodology.




                                          2
            Section 8(a) Program Contracting
            Procedures
            The procedures DoD acquisition officials and the SBA used for
            determining a Small Business section 8(a) Business Development program
            contractor capabilities to manufacture and deliver items specified in the
            seven contracts, valued at $1,502,297, were inadequate, and the primary
            intentions and goals of the SBA Minority Small Business and Capital
            Ownership Development Program were not served. The SBA and the
            Defense Supply Center, Columbus (DSCC) did not document and support
            the technical and financial capability of the section 8(a) program
            contractor for performing the contract requirements and permitted the
            section 8(a) program contactor to perform the contract requirements as a
            broker, which is a practice that the SBA prohibits. As a result, the SBA
            Minority Small Business and Capital Ownership Development Program
            diminished its potential for enhancing business development as intended.
            In addition, the section 8(a) program contractor earned over $135,700
            while adding no value to the contracts DSCC awarded.


Certification and Acceptance into the Section 8(a) Program
     Section 8(a) Program Contractor Certification Procedures. The SBA certifies
     to DoD that a section 8(a) program contractor is competent and responsible to
     perform a specific contract and authorizes the contracting officer to award the
     contract based on mutually agreeable terms and conditions. The SBA and DoD,
     through cooperative efforts, match the DoD requirements with the capabilities of
     section 8(a) program concerns to establish a basis for contracting with the SBA
     under the section 8(a) program. The section 8(a) program contractor selection
     methods are:

            •   the SBA advises the DoD contracting activity through a search letter
                identifying the capabilities of a section 8(a) program firm and asks that
                DoD identify acquisitions to support the firm’s business plans,

            •   the SBA identifies a specific requirement for a particular
                section 8(a) program firm and asks that the DoD contracting activity
                offer an acquisition to the section 8(a) program for the firms, or

            •   DoD reviews the proposed acquisitions and identifies requirements for
                SBA.

     Section 8(a) Program Contractor Acceptance Procedures. The DoD
     contracting activity must notify the SBA of its plans to place section 8(a) program
     contracts for specific quantities of items or specific types of work. The
     notification must identify information such as the description of the work, the
     period of performance, the applicable North American Industry Classification
     System code (formerly Standard Industrial Classification code), an anticipated
     dollar value, the capabilities needed, the type of contract anticipated, and the
     history of the acquisition. Once the offer is received, the SBA determines
     whether to accept the requirements of the offer. If it accepts the acquisition as a


                                          3
     sole-source contract, the SBA will advise the contracting activity of the section
     8(a) program firm selected. The SBA reviews the appropriateness of the
     designated industry classification code assigned to the requirement by the DoD
     contracting activity. The contracting officer requests a pre-award survey of the
     contractor whenever the contracting officer considers it useful. If the results of
     the pre-award survey raise any substantial doubt as to the ability of the firm to
     perform, the contracting officer must refer the matter to the SBA for a Certificate
     of Competency. DoD contracting activities cannot award a section 8(a) program
     contract if the price of the contract results in a cost that exceeds a fair market
     price.

     Defense Logistics Agency Instruction 9100.1. The Defense Logistics Agency
     Instruction 9100.1, “DLA Office of Small and Disadvantaged Business
     Programs,” February 17, 1999, provides guidance for the small business
     specialists of a DoD procurement activity. The instruction empowers small
     business specialists to assist contracting officers target procurements for the
     section 8(a) program, work with contracting officers and match qualified
     section 8(a) program businesses with potential procurement opportunities, and
     assist the section 8(a) program businesses identify potential procurement
     opportunities. The instruction specifically permits the small business specialist to
     seek potential section 8(a) program companies whose manufactured products or
     rendered services match the needs of DoD procurement.

Contracts Awarded to Capital City Pipes, Inc.
     The procedures DoD and SBA used for determining the capabilities of section
     8(a) program contractors to manufacture and deliver items specified in the
     contracts awarded to CCPI were inadequate. DSCC awarded CCPI with the
     seven contracts cited in the complaint, collectively valued at $1,502,297, while
     aware that CCPI would subcontract the contract requirements. The complainant,
     J.G.B. Enterprises, manufactured, tested, packaged, and delivered all items
     procured in the seven contracts. CCPI performed only administrative functions
     for managing the contracts between J.G.B. Enterprises and DSCC. Furthermore,
     CCPI did not stock or maintain the contracted items. DSCC officials confirmed
     that subcontracting was a practice that was permitted and one that
     section 8(a) program contractors used often. However, the CCPI contracting
     actions parallel those of brokering because CCPI did not handle the procured item
     with its own equipment or facilities yet earned 9 percent of the contract value.


Confirming Contractor Technical Capability
     Technical Capability. SBA and DSCC did not document and support the
     technical capabilities of CCPI for manufacturing the hose assemblies purchased in
     the seven contracts. DSCC provided SBA with a formal offering letter for the
     seven contracts cited in the complaint. SBA subsequently responded with a letter
     of acceptance stating that CCPI had “the requisite capabilities” to perform the
     requirements. DSCC Small Business and contracting officials stated that DSCC
     accepted the letters without question or challenge and awarded the seven
     contracts to CCPI.



                                          4
    Other than the SBA acceptance letter, we did not find any evidence in the contract
    file or in discussion with the contracting officers that proved SBA unilaterally
    conducted an analysis that would determine the capability of CCPI to perform. In
    addition, representatives of the SBA Office of the Inspector General informed us
    that, according to an 8(a) official, the 8(a) program officials are not supposed to
    determine whether the contractor has the ability to complete the proposed
    contract. The 8(a) official further stated that the SBA 8(a) employees accepting
    contracts into the 8(a) program are not required to have the technical expertise to
    determine whether a contractor has technical manufacturing capability for a
    particular contract award.

    The contracting officials stated that the DSCC Small Business Office strongly
    influenced the contracting activity to award contracts to section 8(a) program
    contractors in an effort to meet DoD goals for small and disadvantaged
    businesses. While attempting to meet those goals, the DSCC Small Business
    Office and the contracting activities made no effort to validate contractor
    capabilities. Because the CCPI business consisted of a wholesaler that primarily
    distributed pipes, valve fittings, and pumps, the business was not capable of
    constructing the five highly technical hose assemblies for use on military aircraft
    and ground vehicles. A pre-award survey, performed by the Defense Contract
    Management Command (now the Defense Contract Management Agency
    [DCMA]), Clearwater, Florida, recognized the capability of CCPI to “flow down”
    the requirements to their suppliers and to provide the management and
    administrative support required for successfully managing the contract as a
    wholesaler. The pre-award survey described responsibilities in the contract as
    wholesaler functions.

    CCPI subcontracted the entire contract manufacturing, testing, packaging, and
    delivery requirements to capable contractors. CCPI did not add any material
    value to the item or handle the item with its own equipment or facilities.
    Although normal business activity of CCPI constitutes that of a wholesaler, its
    activity in the contracts clearly defines functions associated with brokering.

    Agreements between SBA and DoD. The 1998 Memorandum of Understanding
    permitted DoD to coordinate with the SBA servicing offices to validate whether
    the section 8(a) program contractor was capable of performing specific contract
    requirements. The Partnership Agreement replaced and paralleled the
    Memorandum of Understanding by addressing DoD responsibility for validating
    section 8(a) program contractors’ capabilities. The contracting activity at DSCC
    was not aware of the Memorandum of Understanding or the Partnership
    Agreement and a copy of neither was available at DSCC. The documents had not
    been distributed to the field activities. Instead, DSCC relied solely on the SBA
    acceptance letter for determining whether CCPI was capable of performing the
    awarded contracts.


Confirming Contractor Financial Capability
    The SBA Inspector General found that SBA did not obtain mandatory financial
    statements from CCPI to adequately judge financial capability of CCPI. Before
    the award of the third contract in June 1999, an indication existed of unstable
    financial condition of CCPI. The pre-award survey, conducted by the Defense


                                         5
     Contract Management Command, also stated that financial condition of CCPI was
     unsatisfactory and could not be rated as favorable because of unaudited financial
     statements, negative measures of liquidity, a low cash position of assets, and a
     high accounts payable balance. After that indication of unsatisfactory financial
     condition, DSCC did not pursue its right to request a Certificate of Competency
     from the SBA. A Certificate of Competency ensures that a contractor is
     responsible in the areas of capability, competency, credit, and integrity for
     receiving and performing a specific Government contract. DSCC officials stated
     that it would be less likely to perform the review to support a Certificate of
     Competency because SBA had already issued acceptance letters for CCPI. DSCC
     awarded 10 additional contracts to CCPI subsequent to receiving an indication
     that CCPI was having financial difficulties.

     The SBA Inspector General reported that CCPI did not submit required financial
     statements to the SBA. The Defense Contract Audit Agency reported in
     November 2000 that CCPI had experienced financial instability since 1997.
     Determining the financial capabilities of CCPI is not possible without reviewing
     the financial statements, which would have indicated financial problems.


CCPI Dual Standard Industrial Code Classifications.
     CCPI was qualified under two Standard Industrial Classification code groups:
     group 34—manufacture of fabricated metal products, and group 50—wholesale
     trade-durable goods. Within group 34, CCPI was specifically qualified for the
     manufacture of “valves and pipe fittings” (code 3494). Within group 50, CCPI
     was specifically qualified in the wholesale business capacity for the sale of
     “industrial machinery and equipment” (code 5084). The 5084 Standard Industrial
     Code signified that CCPI was qualified as a wholesaler, a dealer, or a
     distributor—business functions that the DSCC Small Business Office used
     interchangeably. The DSCC Small Business Office representative stated that the
     SBA also qualified CCPI with a manufacturer classification to maintain
     “congruency” with the contract solicitations because DSCC would not want to
     solicit only to dealers.
     The SBA acknowledged that CCPI was qualified for both the 3494 and
     5084 classification codes in each of the seven contract actions cited by the
     complainant. The SBA Inspector General found that the SBA did not always
     obtain or necessarily review the contract document. However, SBA should have
     been aware that, as a wholesaler, CCPI was limited to providing only the
     materials for assembly, a wholesale function. CCPI did not function as a
     wholesaler in the seven contract actions but acted as a broker by subcontracting
     the entire manufacturing, testing, packaging, and shipping functions for the seven
     contract actions to other businesses.




                                          6
Conclusion
    The primary goal of the Minority Small Business and Capital Ownership
    Development Program is to assist the entry of small disadvantaged businesses into
    the mainstream of DoD procurement by gaining access to the resources necessary
    for improving a firm’s opportunities and competing on an equal basis. The
    business practices that CCPI perpetuated in the seven contracts did not improve
    its opportunity to compete with established firms in the manufacture of hose
    assemblies. Subcontracting the entire contract requirement merely allowed CCPI
    to gain a percentage of the selling price. We question the merit of enhancing
    small and disadvantaged businesses by supporting a contractor who can only
    fulfill contract requirements in a brokering capacity.

    The contracting officers and Small Business Office officials at DSCC did not
    fully implement contract administration procedures that would determine the
    capability of a section 8(a) program contractor. The contracting officers and
    Small Business Office officials relied solely on the SBA for determining
    contractor capability. The SBA Inspector General stated that the SBA field office
    was aware but did not take appropriate action on at least one contract that the
    contractor improperly fulfilled the contractor requirements within the SBA
    definition of broker. Contracting officers and Small Business Office officials
    were unaware of their responsibilities addressed in the Memorandum of
    Understanding, which further exacerbated any attempt to validate the capabilities
    of the contractor.

    We cannot estimate within the DoD contracting community the pervasiveness of
    the weaknesses of the joint contract administration addressed in this report and
    realize that the issues raised involve one section 8(a) program contractor, one
    DoD contracting activity, and seven contract actions. DoD contracting activities
    should, however, be aware of their duties and responsibilities outlined in the
    current Partnership Agreement and realize the possibility that SBA may be
    providing less than satisfactory compliance with its own internal contract
    administration procedures of the Minority Small Business and Capital Ownership
    Development Program.




                                        7
Recommendations, Management Comments, and Audit
Response
Management Comments Required and Added Recommendations. The Under
Secretary of Defense for Acquisition, Technology, and Logistics did not comment
on Recommendations 1.a. and 1.b on a draft of this report. In addition, because of
comments provided by the Defense Logistics Agency to the finding of this report,
we added Recommendation 1.c. to the Under Secretary to clarify responsibilities
between DoD and the SBA on determining the technical capability of an 8(a)
contractor. We request that the Under Secretary of Defense for Acquisition,
Technology, and Logistics provide comments to Recommendations 1.a., 1.b., and
1.c., in response to the final report.

1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

       a. Distribute the Partnership Agreement between the Small Business
       Administration and the Department of Defense to all contracting
       offices and emphasize compliance with the Agreement.

       b. Provide guidance about awarding contracts to those Small and
       Disadvantaged Businesses whose only role in the contract
       requirement parallel those of broker, defined as a prohibitive practice
       in the Code of Federal Regulations, Title13, Part 124.

       c. Define whether the responsibility for determining the technical
       capability of an 8(a) firm is a sole DoD or Small Business
       Administration responsibility or a joint responsibility between both
       organizations.

2. We recommend that the Director, Defense Supply Center, Columbus
require its contracting activity and Small Business Office to:

       a. Conduct a pre-award survey of a Small and Disadvantaged
       Business when evident that the contractor may be experiencing
       technical or financial instability that would affect successful contract
       completion.

Management Comments. The Deputy Director, Logistics Operations, Defense
Logistics Agency concurred with the Recommendation that was directed to the
Director, Defense Supply Center, Columbus. The Deputy Director stated that a
pre-award survey will be requested when the ability of an 8(a) firm to perform the
contract is questioned. The Defense Supply Center, Columbus added language
requiring pre-award surveys into their acquisition guidance. Similar guidance is
being prepared and will be incorporated into the Defense Logistics Agency
acquisition directive.

       b. Comply with provisions of the Partnership Agreement between
          the Small Business Administration and the Department of
          Defense.




                                    8
Management Comments. The Deputy Director concurred with the
recommendation and stated that the Defense Supply Center Columbus revised its
acquisition guidance in September 2003, to alert contracting officers to take
additional steps to ensure that 8(a) firms are responsible and capable of
performing. In addition, the acquisition directive is being revised accordingly.



Management Comments on the Finding and Audit
Response
The Deputy Director, Logistics Operations, Defense Logistics Agency provided
the following comments to the finding. For a full text of the Defense Logistics
Agency comments, see the Management Comments section of the report.

Defense Logistics Agency Comments. The Deputy Director contended that the
draft report indicated that the MOU and subsequent Partnership Agreement either
completely shifted to DoD or established shared responsibilities between DoD
and the SBA for determining the technical capability of an 8(a) firm. These
agreements permit, but not require, DoD to address the capability of an 8(a) firm
and does not relieve SBA of that responsibility. Because the SBA remains the
prime contractor in an 8(a) contract award, the determination of technical
capability of an 8(a) firm remains an SBA function. The Defense Supply Center
should have requested a Certificate of Competency from the SBA when the pre-
award survey indicated that the subject 8(a) firm experienced financial
difficulties.

Audit Response. We contend that the current partnership agreement in effect
between the SBA and the DoD does not unilaterally shift the responsibility for
determining the technical capabilities of an 8(a) firm to the DoD but does permit
the sharing of such responsibilities between the organizations. Section IV.b.2. of
the Partnership Agreement states that:
           The Department of Defense shall determine which requirements are
           suitable for offering to the 8(a) program in accordance with FAR
           Subpart 19.8, and, where appropriate, identify, in conjunction with the
           appropriate SBA servicing offices, 8(a) participants capable of
           performing these requirements.

As written, the coordinated effort outlined in the agreement does not suggest that
the SBA was relieved of determining whether an 8(a) firm is capable of
performing contract requirements. However, the agreement permits DoD to take
an active role to confirm the technical capability of an 8(a) firm. In addition,
FAR Subsection 19.804-1 permits DoD to obtain “…any other pertinent
information about known 8(a) contractors, the items, or the work. This includes
any information concerning the firms’ capabilities. When necessary, the
contracting agency shall make an independent review of the factors in 19.803(a)
[including information pertaining to the concern's technical ability and capacity to
perform] and other aspects of the firms’ capabilities which would ensure the
satisfactory performance of the requirement being considered for commitment to
the 8(a) Program.”




                                         9
We also received written correspondence from the SBA Inspector General’s
Office that opposed the position of the Defense Logistics Agency regarding the
determination of the technical capability of an 8(a) firm. In a March 15, 2004
memorandum, the SBA Inspector General’s Office stated that, “According to an
[SBA] 8(a) official, SBA is responsible for determining that the company is
eligible for the 8(a) program, not whether it has the financial ability or the
technical capability to do the contract.”

A conflict involving the interpretation and perception of the Partnership
Agreement exists between DoD and the SBA when addressing responsibilities for
determining the technical capability of an 8(a) firm. A formal clarification of the
duties and responsibilities between the two organizations is recommended,
therefore, we have added Recommendation 1.c. to the Under Secretary of Defense
for Acquisition, Technology, and Logistics to the final report.




                                    10
Appendix A. Scope and Methodology
    Work Performed. We reviewed issues raised in a complaint submitted to the
    Chairman, Committee on Small Business, U.S. House of Representatives,
    regarding whether DoD violated section 8(a) of the Small Business Act by
    awarding contracts to a business that was not technically capable or financially
    responsible. See Appendix C for the overall issues raised by the complainant and
    our conclusions.

    We visited contract and Small Business Office personnel at the DSCC. We also
    met with representatives of the Office of the Inspector General, SBA, to discuss
    issues in the congressional request that addressed the SBA contract administrative
    procedures.

    We analyzed the actions and related modifications on seven contracts,
    collectively valued at $1,502,297, for the procurement of various hose assemblies.
    We also analyzed documents in the seven contract files, including memorandums
    and correspondence between the following organizations and personnel: SBA;
    CCPI; J.G.B. Enterprises; DSCC contract and Small Business Office personnel;
    and the Defense Finance and Accounting Center, Columbus. The documents are
    dated between August 1998 and September 2000.

    We performed this audit from August 2003 through December 2003 in
    accordance with generally accepted government auditing standards. We did not
    review the management control program because of the limited scope of this
    audit. The Committee on Small Business, U.S. House of Representatives,
    requested that we determine whether DoD and SBA violated section 8(a) of the
    Small Business Act. We reviewed the DoD role in the contracting actions and
    responded to the overall issues raised by the complainant.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Contract Management (Improve Processes and Controls to Reduce
    Contract Risk) high-risk area.


Prior Coverage
    During the last 5 years, the Defense Contract Audit Agency and the U.S. Small
    Business Administration Inspector General have issued two reports related to the
    financial stability of CCPI.

    Defense Contract Audit Agency Report No. 1301-2000N17600113, “Audit of
    Financial Capability,” November 15, 2000

    SBA Office of the Inspector General Memorandum (untitled), September 5, 2003




                                        11
Appendix B. Congressional Request




                     12
Appendix C. Responses to Issues Raised in the
            Congressional Complaint

Issue 1. Technical Capability
     The complainant alleged that CCPI did not have the technical or management
     competencies for performing the contract requirements and violated regulations
     by subcontracting the entire contract effort. The complainant further alleged that
     a contract stated inspection and acceptance would occur at the subcontractor
     facility, thus proving that the prime contractor did not have the capability.

     Audit Results. The allegations made by the complainant are true. CCPI did not
     have the technical competency to perform the manufacturing requirements in the
     contract. However, the SBA qualified CCPI as a wholesaler under the Standard
     Industrial Classification. Therefore, per its industrial classification of a
     wholesaler, CCPI was not required to demonstrate that it was capable of meeting
     the manufacturing requirements. CCPI needed only to demonstrate capability for
     performing wholesale functions, such as ensuring the subcontractor obtained the
     material according to specifications and that the items were properly tested,
     packaged, and shipped. The Defense Contract Management Command reviewed
     the technical capability of CCPI and found that CCPI demonstrated
     “. . . satisfactory capability to ‘flow down’ the contract requirements to their
     suppliers and to provide the management and administrative support required to
     successfully manage the contract as a wholesaler.” A DSCC official stated that
     because CCPI was qualified as a wholesaler for the seven contracts, it did not
     violate regulations by subcontracting the contract requirements. Finally, the
     inspection and acceptance of the items in the contract would occur at the facility
     that manufactured the items.


Issue 2. Manufacturing, Testing, or Measuring Equipment
     The complainant alleged that, “CCPI had no manufacturing, test or measurement
     equipment to perform the contracts.”

     Audit Results. The allegation made by the complainant is true. CCPI did not
     have the manufacturing, test, or measurement equipment necessary for the
     technical aspect required in the contracts. However, SBA qualified CCPI as both
     a wholesaler and a manufacturer. The industry classification for CCPI and its role
     as a wholesaler precluded the necessity for the specialized equipment for
     manufacturing, testing, or measuring. The contracts indicated that manufacture,
     inspection, and packaging of the items would occur at the manufacturer’s facility.




                                         13
Issue 3. Quality System
     The complainant alleged that, “CCPI had no government approved Quality
     System in place as required by the section 8(a) program.” The complainant
     further alleged that, “all contracts sole sourced to CCPI by DSCC required
     adherence to MIL-Specs (military specifications) for procurement, record
     keeping, manufacturing, process control, testing and quality control. CCPI did
     not have the inherent ability to comply with any of these specifications.”

     Audit Results. The allegation made by the complainant is true. CCPI did not
     have a Government-approved quality system in place. As the SBA qualified
     CCPI as a wholesaler, a quality system associated with manufacturing processes
     would not be required for a wholesaler.


Issue 4. Financial Stability
     The complainant alleged that, “CCPI had significant financial instability.” The
     complainant further alleged that, “At the time the SBA certifies their finances,
     CCPI is incurring substantial debts” and that a Defense Contract Audit Agency
     audit report shows that CCPI was an insolvent company. Regarding financial
     issues, the complainant further alleged that, “someone at DSCC unilaterally
     modified the contract without J.G.B. Enterprise’s knowledge and CCPI received
     the payment for the contract.”

     Audit Results. Regarding the financial instability of CCPI, the allegation is true.
     CCPI was not financially stable. We reviewed contract files and a pre-award
     survey that disclosed that CCPI was experiencing financial problems. DSCC
     subsequently awarded 10 contracts, valued at $624,569 to CCPI after obtaining
     knowledge of financial instability of CCPI. A DSCC Small Business official
     stated that because the CCPI role in the contracts consisted of primarily handling
     the administrative aspects of the contracts, DSCC officials continued to award
     contracts to CCPI in an attempt to aid in financial recovery of CCPI. DSCC
     incurred unnecessary risk by continuing to award contracts to a contractor who
     was not financially stable.

     The Defense Contract Audit Agency report, November 2000, reflects severe
     financial instability for CCPI. However, DSCC did not award any contracts to
     CCPI subsequent to the date of the Defense Contract Audit Agency report.

     Regarding the complainant’s payment issue, the allegation is not true. DSCC
     never modified the payment address for remitting payment to any contractor other
     than CCPI. Upon the complainant’s request for payment redirection, DSCC
     denied it and informed the complainant that the Government is obligated to make
     payment to only the prime contractor.




                                         14
Issue 5: Financial Statements and Business Plans
     The complainant alleged that, “CCPI failed to file mandatory audited financial
     statements and business plans as required.”

     Audit Results. This allegation is true. The SBA Inspector General addressed
     this issue and reported that CCPI had not submitted required financial statements.
     The SBA Inspector General also reported that the SBA inappropriately accepted
     procurements, as CCPI was incompliant with the SBA regulations because it did
     not submit the required financial statements. Because the Defense Contract Audit
     Agency reported that CCPI had experienced financial instability since 1997,
     timely submission of the required financial statements would have disclosed the
     financial difficulties. The SBA could not have informed DSCC of the financial
     instability of CCPI without requiring proper submission of financial statements.




                                         15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
  Director, Office of Small and Disadvantaged Business Utilization

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency
   Director, Defense Supply Center Columbus

Non-Defense Federal Organization
Director, Office of Management and Budget




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on Small Business




                                        17
18
Defense Logistics Agency Comments




                     19
Final Report
 Reference




Added
Recommen-
dation,
Page 8




               20
21
22
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

David K. Steensma
Terry L. McKinney
Nick Como
Tracy Smelley
Theresa Tameris
